No. 20-444

In the Supreme Court of the United States

United States,
Petitioner,

Vv.

Michael Andrew Gary,
Respondent.

On Writ of Certiorari to the
United States Court of Appeals
For the Fourth Circuit

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the Brief of Amicus
Curiae Stuart Banner in the above-entitled case complies with the typeface
requirement of Supreme Court Rule 33.1(b), being prepared in Century Schoolhook
12 point for the text and 10 point for the footnotes, and that the Brief of Amicus
Curiae contains 4,753 words, excluding the parts of the document that are
exempted by Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

g-

Stuart Banner

UCLA School of Law

405 Hilgard Ave.

Los Angeles, CA 90095
(310) 206-8506
banner@law-ucla.edu
Counsel for Amicus Curiae

Executed on March 22, 2021.
